        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
Western Area Power
Administration's Rocky Mountain
Regional Office's Transmission
Vegetation Management Program




OAS-L-14-06                    March 2014
                                 Department of Energy
                                    Washington, DC 20585

                                        March 31, 2014


MEMORANDUM FOR THE ADMINISTRATOR, WESTERN AREA POWER
               ADMINISTRATION


FROM:                    Jack Rouch, Director
                         Central Audits Division
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Western Area Power Administration's
                         Rocky Mountain Regional Office's Transmission Vegetation Management
                         Program"

BACKGROUND

The Department of Energy's (Department) Western Area Power Administration (Western)
markets wholesale power produced from Federal water projects. Western transmits power
through approximately 17,000 miles of transmission lines within a 15-state region of the central
and western United States. Western's transmission lines are managed by four regional offices —
Rocky Mountain, Sierra Nevada, Upper Great Plains, and Desert Southwest.

Each regional office is responsible for ensuring vegetation management practices are in place to
prevent physical contact between transmission lines and nearby vegetation. If vegetation grows
near or into power lines, it can interfere with electric power flow, pose safety problems to the
general public, and cause power outages. For example, inadequate vegetation management by
two public utilities was identified as the primary cause for the 2003 East Coast-Midwest electric
power blackout, which affected over 50 million people in the United States and Canada.
Additionally, in 1996, a Bonneville Power Administration transmission line sagged into a tree
and triggered a rolling blackout that affected approximately 10 million people on the West Coast.

Given the importance of vegetation management to the continuity of electrical transmission and
public safety, we conducted an audit to determine whether Western had effectively managed its
Transmission Vegetation Management Program (Vegetation Program). We focused on the
Rocky Mountain Region (Rocky Mountain) because it had one of the largest transmission
infrastructures within Western. Between June 2011 and September 2013, Rocky Mountain spent
approximately $4.6 million for vegetation maintenance in forested areas.

RESULTS OF AUDIT

Our audit found that Rocky Mountain had generally implemented management controls for its
Vegetation Program. For example, Rocky Mountain inspected transmission lines at least twice
annually through either ground and aerial patrols, as well as tracked and prioritized vegetation
maintenance work. However, we identified opportunities to improve Rocky Mountain's
management of its vegetation maintenance contractor.

                               Vegetation Maintenance Contractor

We found that Rocky Mountain could improve the management of its contractor responsible for
vegetation maintenance. Specifically, Rocky Mountain officials did not independently verify the
accuracy of the contractor-prepared assessments that detailed each tree that required maintenance
and did not always verify that maintenance was completed in accordance with the assessments.
According to contract requirements, Rocky Mountain must verify the contractor's compliance
with essential performance requirements and may use various methods to perform surveillance of
the contractor's activities.

As part of the vegetation maintenance process, Rocky Mountain issued its vegetation
maintenance contractor a task order to complete an assessment report identifying trees
encroaching on transmission lines. Rocky Mountain approved the assessment report and the
contractor was responsible for removing identified trees. Rocky Mountain officials informed us
that they did not make site visits to independently validate the contractor assessment of needed
vegetation work to ensure it was accurate and complete. However, Vegetation Program officials
stated that during field visits, they observed transmission lines and existing vegetation, so they
were familiar with work that was needed. We were unable to substantiate such field visits or
observations as Vegetation Program officials told us they were not documented. Additionally,
while these observations may provide a general indication of the amount of work to be done,
they would not provide the level of assurance available from procedures such as an independent
confirmation of a representative sample of proposed work.

Additionally, Rocky Mountain officials did not ensure the contractor's vegetation maintenance
work was completed according to the contractor-prepared assessment. After work was
completed, the contractor provided a post-assessment of work performed. Rocky Mountain then
paid the contractor based on the number of trees removed for each task order completed.
Although Rocky Mountain officials informed us that spot checks were performed to verify the
contractor's completed work, we found the spot checks to be infrequent. For instance, we
reviewed 10 of 42 task orders issued to the contractor between June 2011 and September 2013,
and found documentation to support that Rocky Mountain officials performed spot checks on
only 20 of the 1,347 (1.5 percent) transmission line segments maintained by the contractor for
those task orders. Rocky Mountain officials asserted that they had overseen the contractor more
frequently than it had appeared because not all the spot checks were documented. Additionally,
Rocky Mountain had assigned only one staff member to manage the Vegetation Program. That
individual told us that he was only able to conduct a limited number of spot checks given his
other responsibilities. However, we noted that Western's Upper Great Plains Region and another
Power Marketing Administration, Bonneville Power Administration, dedicated additional
resources to the task and had utilized contractor inspectors to oversee the work of their
vegetation maintenance contractor's work.




                                                 2
                                     Policies and Procedures

The issues we identified were caused, in part, because Rocky Mountain did not have formal
policies, procedures, or guidance related to oversight of its vegetation maintenance contractor.
Despite contract requirements to verify contractor performance through various methods, we
found Rocky Mountain did not have any formal policies and procedures outlining verification
methods for the Vegetation Program's pre-work and post-work activities. Further, we noted that
Western had not developed similar policies and procedures governing its regions' oversight of
Vegetation Programs.
Rocky Mountain's Vegetation Program officials informed us that they were comfortable with the
quality control and assurance measures already in place by the contractor. According to
officials, the vegetation maintenance contractor took before and after pictures of completed work
for verification of the contractor's performance. However, we noted that before and after
pictures were not taken in every instance. For example, in one of the task orders we reviewed,
pictures were taken of only 44 of the 70 transmission line segments, and in another task order we
noted that there were no pictures taken. Additionally, Rocky Mountain officials stated that their
extensive ground and aerial photo monitoring of the transmission lines would identify the
changes in vegetative conditions that would indicate maintenance work had been performed.
Although photo monitoring provides a good measure of overall progress made by the contractor,
such activity does not ensure the accuracy of individual tree removal activities required by the
statements of work nor will it provide evidence that specific requirements were met. Given that
the contractor was paid by the number of trees removed, Rocky Mountain officials could
improve the quality of their monitoring activities by ensuring that at least a representative sample
of the claimed work is validated as part of its on-going verification program.

IMPACT AND PATH FORWARD

Additional contractor work verification techniques, or refinement of current techniques, could
help Rocky Mountain ensure that it is not overpaying its contractor. While a number of actions
are already in place, improving verification could also increase assurance that vegetation is not
encroaching on transmission lines. Because of these concerns, we suggest that Western's
Administrator direct the development and implementation of policies and procedures governing
the management and verification of contractor performed vegetation maintenance activities.

This report is one of two audit reports on the Department's power marketing administrations'
vegetation management programs. Our other report, Bonneville Power Administration's
Transmission Vegetation Management Program (OAS-L-14-05, March 2014), also disclosed
issues regarding management of vegetation maintenance contractors.

Attachment

cc: Deputy Secretary
    Acting Under Secretary for Science and Energy
    Chief of Staff



                                                 3
                                                                                    Attachment


                      OBJECTIVE, SCOPE AND METHODOLOGY


OBJECTIVE

The objective of the audit was to determine whether Western Area Power Administration
(Western) had effectively managed its Transmission Vegetation Management Program
(Vegetation Program).

SCOPE

The audit was performed between May 2013 and March 2014, at Western's Rocky Mountain
Region (Rocky Mountain), Western Colorado Maintenance Office in Montrose, Colorado and
Upper Great Plains Region (Upper Great Plains), South Dakota Maintenance Office in Huron,
South Dakota. Our review at Upper Great Plains was limited and did not included detailed
testing. The audit was conducted under Office of Inspector General Project Number A13DN034.

METHODOLOGY

To accomplish our objective, we:

    •   Obtained and reviewed policies, procedures, laws, and regulations related to Rocky
        Mountain and Upper Great Plain's Vegetation Programs.

    •   Interviewed key officials to obtain an understanding of Rocky Mountain and Upper
        Great Plains' Vegetation Programs.

    •   Evaluated the management controls in place for the work conducted by Rocky Mountain
        vegetation maintenance contractor.

    •   Evaluated whether Rocky Mountain had effective practices in place to inspect vegetation
        surrounding the transmission lines to determine necessary vegetation maintenance
        requirements.

    •   Analyzed Rocky Mountain's implementation of vegetation maintenance to ensure
        necessary maintenance had been conducted.

    •   Judgmentally selected a sample of 10 of 42 task orders issued by Rocky Mountain's
        vegetation maintenance contractor that manages the Region's forested area between June
        2011 and September 2013 to determine whether Vegetation Program officials had
        conducted quality assurance reviews of completed work. Attributes we considered in
        our sample selection included the dollar value and variety of performance dates. For
        each task order, we obtained the statement of work and related spot check review
        documents, if available, and identified the number of transmission line segments that


                                               4
                                                                          Attachment (continued)

        required work to be completed and the number of segments that were spot checked.
        Because we did not use a statistical sample, we could not project to the population.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. Accordingly, we assessed significant
internal controls and compliance with laws and regulations necessary to satisfy the audit
objective. We assessed Western's implementation of the GPRA Modernization Act of 2010 and
found Western had established performance measures. Because our review was limited, it would
not necessarily have disclosed all internal control deficiencies that may have existed at the time
of our audit. We conducted an assessment of computer-processed data relevant to our audit
objective and found that it could be relied on.

An exit conference was waived by Western management on March 19, 2014.




                                                5
                                                                    IG Report No. OAS-L-14-06

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
effective as possible. Therefore, this report will be available electronically through the Internet at the
following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

       Your comments would be appreciated and can be provided on the Customer Response Form.
